CERTIFICATE OF SERVICE
No. TBD
Philippe Buhannic
Petitioner(s)
v.
NY Appellate Division, First Judicial Department
Respondents)
Being duly sworn, I depose and say under penalty of perjury:
I am a pro se party who is Petitioner in this matter. On the undersigned date, I caused to be
mailed through my filing partner Supreme Court Press, the parties in the above captioned matter with
the Philippe Buhannic Petition for Extraordinary Writ of Mandamus to the New York
Appellate Division, First Judicial Department, three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Rolando T. Acosta
NY Appellate Division, 1st Dept.
27 Madison Avenue
New York, NY 10010
(212) 340-0400
Presiding Justice, NY Appellate Division,
First Judicial Department

John M. Vassos
Morgan, Lewis & Brockius LLP
101 Park Avenue
New York, NY 10178-0060
(212) 309-6158
Counsel for Counsel for Related Party
Tradingscreen Inc.

Philippe Buhannic
Petitioner Pro Se
65 Central Park West, Unit 17 A
New York, NY 10023
(917) 716-3542
December 24, 2019

SCP Tracking: Buhannic-65 Central Park West, Unit 17 A-Cover White

